Southwest Airlines Federal Credit Union
www.swacu.org
DALLAS
2430 Shorecrest
Dallas, TX 75235
800.262.5325

HOUSTON
8441 Gulf Frwy., Suite 103
Houston, TX 77017
800.262.5325

PHOENIX
2330 E. Jones Ave, Suite 6
Phoenix, AZ 85040
800.262.5325

EULESS
801 W. Euless Blvd, Suite 104
Euless, TX 76040
800.262.5325

CREDIT LINE ACCOUNT
AGREEMENT AND DISCLOSURE
THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-IN-LENDING DISCLOSURE STATEMENTS, VISA PLATINUM, SECURED
VISA PLATINUM, VISA REWARDS AND VISA SIGNATURE AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR VISA PLATINUM, SECURED VISA
PLATINUM, VISA REWARDS AND VISA SIGNATURE CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT
CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

VISA Platinum:

________% Introductory APR for ______ months

After that Your APR will be
based on the Prime Rate.
Secured VISA Platinum:

________% Introductory APR for ______ months

After that Your APR will be
based on the Prime Rate.
VISA Rewards:

________%. This APR will vary with the market

________% Introductory APR for ______ months

After that Your APR will be
based on the Prime Rate.
VISA Signature:

________%. This APR will vary with the market

________% Introductory APR for ______ months

After that Your APR will be
based on the Prime Rate.
Annual Percentage Rate (APR)
For Balance Transfers

________%. This APR will vary with the market

________%. This APR will vary with the market

VISA Platinum: ________% Introductory APR for ______ months
After that Your APR will be ________%. This APR will vary with the market based
on the Prime Rate.
VISA Rewards: ________% Introductory APR for ______ months
After that Your APR will be ________%. This APR will vary with the market based
on the Prime Rate.
VISA Signature: ________% Introductory APR for ______ months
After that Your APR will be ________%. This APR will vary with the market based
on the Prime Rate.

SEE PAGE 2 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2021. All Rights Reserved.

Page 1 of 6

OTBS 016 FRB Web SWST (3/21)
Rev. (1/19)

Interest Rate and Interest Charges (continued)
Annual Percentage Rate (APR)
For Cash Advances

VISA Platinum: _________%
This APR will vary with the market based on the Prime Rate.
Secured VISA Platinum: _________%
This APR will vary with the market based on the Prime Rate.
VISA Rewards: _________%
This APR will vary with the market based on the Prime Rate.
VISA Signature: _________%
This APR will vary with the market based on the Prime Rate.
Line of Credit: _________%
Overdraft Protection: _________%

Paying Interest

For VISA, We will not charge You interest on purchases if You pay Your entire balance
owed each month within 25 days of Your statement closing date. We will begin charging
interest on cash advances and balance transfers on the transaction date.
For all other Feature Categories, We will begin charging interest on the transaction date.

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit
Card, visit the website of the Consumer Financial Protection Bureau at
http:www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
 Cash Advance Fee
 Balance Transfer Fee
 Foreign Transaction Fee

For VISA, 2.00% of each advance ($10.00 minimum)
For VISA, 2.99% of each balance transfer
For VISA (except VISA Signature), 2.00% of each transaction in U.S. Dollars.

Penalty Fees
 Returned Payment
 Late Payment

For VISA, up to $30.00
For VISA, up to $38.00
For all other Feature Categories, 20.00% of the payment due ($0.05 minimum)

How We Will Calculate Your Balance: For Line of Credit and Overdraft Protection, We use a method called "daily balance." For
VISA, We use a method called "average daily balance (including new purchases)." See Your Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.

SEE PAGE 1 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2021. All Rights Reserved.

Page 2 of 6

OTBS 016 FRB Web SWST (3/21)
Rev. (1/19)

In this Agreement, the reference to "We," "Us," "Our," "Credit Union," and "Creditor" mean SOUTHWEST AIRLINES FEDERAL CREDIT UNION. The words "You," "Your," and
"Debtor" mean each person accepting this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any VISA
Platinum, Secured VISA Platinum, VISA Rewards or VISA Signature Credit Card issued to You by Us and any duplicates or renewals.
You, as the Borrower, under a Credit Line Account ("Account"), understand that the following Federal Disclosure Statement and the terms and conditions found herein constitute
Our Agreement with You. You may request advances on Your Account through a variety of means which could include (but may not be limited to) telephonic requests, advance
request forms, vouchers, checks, charge slips, debit cards, Credit Cards, wire transfers, direct transfers, and/or wire transfers to specific payees identified by You, direct
transfers to Your share/share draft or other Credit Union account and the like. Regardless of the means by which any advance is made, You promise to pay Us all amounts
charged to Your Account by You or by any user who has access to Your Account, with actual, apparent or implied authority for use of Your Account, including Finance Charges
and other fees or charges described herein.
FEATURE CATEGORIES. Your Account has Feature Categories which may include Line of Credit, Overdraft Protection, VISA Platinum, Secured VISA Platinum, VISA Rewards
and VISA Signature.

ANNUAL
PERCENTAGE RATE
For Purchases

Index

Margin

Daily
Periodic Rate
For Purchases

VISA Platinum

____________

____________

____________

____________

Secured VISA Platinum

____________

____________

____________

____________

VISA Rewards

____________

____________

____________

____________

VISA Signature

____________

____________

____________

____________
ANNUAL
PERCENTAGE RATE
For Balance Transfers

Variable Rate

Feature Category

Index

Margin

Daily
Periodic Rate
For Balance Transfers

VISA Platinum

____________

____________

____________

____________

VISA Rewards

____________

____________

____________

____________

VISA Signature

____________

____________

____________

____________
ANNUAL
PERCENTAGE RATE
For Cash Advances

Variable Rate

Feature Category

Index

Margin

Daily
Periodic Rate
For Cash Advances

VISA Platinum

____________

____________

____________

____________

Secured VISA Platinum

____________

____________

____________

____________

VISA Rewards

____________

____________

____________

____________

VISA Signature

____________

____________

____________

____________

Line of Credit

____________

____________

Overdraft Protection

____________

____________

Variable Rate

Feature Category

ADVANCES. Whenever You request a transaction, We may require You to prove
Your identity. Advances made on Your Account will be processed according to the
instructions You give Us (such as by wire transfer, direct transfer to Your Credit Union
account, or by other such means) and You authorize Us to do this, or We may draw
a draft or check made payable to You and mail it to You. When the amount advanced
appears on a subsequent statement, that will be conclusive evidence of Your advance
request unless You notify Us that You disagree with any such item appearing on Your
periodic statement according to the provision of this Agreement titled "Your Billing
Rights: Keep this Document for Future Use." You understand that whether or not any
specific secured advance request is approved may be determined by how much equity
You have or will have in the shares, certificates, and/or Collateral offered as security.
At this time, You may not obtain advances for balance transfers under Your Secured
VISA Platinum feature category.
Copyright Oak Tree Business Systems, Inc., 2021. All Rights Reserved.

SECURITY. As permitted by law, to secure all transactions under this Agreement in
either joint or individual Accounts, We have the right to impress and enforce a
statutory lien against Your shares on deposit with Us (other than those deposits
established under a governmental approved tax deferral plan such as an IRA or
Keogh account), and any dividends due or to become due to You from Us to the
extent that You owe on any unpaid balance on Your Account and We may enforce
Our right to do so without further notice to You. Additionally, You agree that We
may set-off any mutual indebtedness.
You acknowledge that You own any certificates, shares, and/or Collateral pledged as
security and that there are no other liens against them other than Ours. You agree to
perform all acts which are necessary to make Our security interest in the certificates,
shares, and/or Collateral being pledged enforceable.

Page 3 of 6

OTBS 016 FRB Web SWST (3/21)
Rev. (1/19)

For advances under any certificate secured Feature Category, all certificates
which are pledged as Collateral must be renewed until Your outstanding Account
balance is paid in full. Failure to renew any certificates securing any advance wi ll
cause Your entire outstanding Account balance to become immediately due
and payable.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given as
security under this Agreement or for any other loan You may have with Us will secure
all amounts You owe Us now and in the future if that status is reflected in the "Truthin-Lending Disclosure" in any particular Agreement evidencing such debt.
CONSENSUAL LIEN ON SHARES. If You have been issued a Credit Card,
debit card or ATM card, You grant and consent to a lien on Your shares with
Us (except for IRA and Keogh accounts) and any dividends due or to
become due to You from Us to the extent You owe on any unpaid Credit
Card balance, and/or overdraft protection balance created through the use
of Your debit card.
ACCOUNT RESTRICTIONS. In order to receive and maintain a Secured VISA
Platinum Feature Category, You agree to give Us a specific pledge of shares which
will equal Your Credit Limit. In the event that You default on Your Account, We may
apply these shares toward the repayment of any amount owed on Your Feature
Category. You may cancel Your Secured VISA Platinum Feature Category at any time
by paying any amounts owed on such Feature Category. To be certain that Your entire
balance and all advances are paid, any shares pledged may not be available to You
for 30 days after You have cancelled and any outstanding balance is paid in full.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for each
Feature Category for which You are approved. Unless You are in default, any Credit
Limits established for You will generally be self-replenishing as You make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We authorize
the advances which caused You to exceed Your Credit Limit. Even if Your unpaid
balance is less than Your Credit Limit, You will have no credit available during any
time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for the
repayment of any amounts owed. If any Account access device, such as a Personal
Identification Number (PIN) is requested and approved, You understand that any such
Account access device(s) will be mailed only to the primary Borrower at the address
that We have on file for You. We may refuse to follow any instructions which run
counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need only
pay the Minimum Monthly Payments, You understand that You have the right to repay
at any time without penalty. You also understand that You will only be charged periodic
Finance Charges to the date You repay Your entire balance. You may make larger
payments without penalty. Any partial payment or prepayment will not delay Your next
scheduled payment. All payments to Us must be in lawful money of the United States.
We may apply each payment to whichever Feature Category We wish. Except as
required by law, payments will be applied first to any Late Charges owing, then to the
Finance Charge due, then to the outstanding principal balance.
Any unpaid portion of the Finance Charge will be paid by subsequent payments and
will not be added to Your principal balance. You understand that any delay in the
repayment of Your unpaid balance will increase Your periodic Finance Charges and
any acceleration in the repayment of Your unpaid balance will decrease Your periodic
Finance Charges.
Overdraft Protection and Line of Credit Minimum Monthly Payments will be
established at the time of each advance at an amount equal to $3.00 per $100.00 (or
fraction thereof) of the unpaid balance of Your Account after such advance is taken,
subject to the lesser of $30.00 or Your balance.
VISA Platinum, Secured VISA Platinum, VISA Rewards and VISA Signature Minimum
Payments will be an amount equal to 2.00% of Your new unpaid VISA Platinum,
Secured VISA Platinum, VISA Rewards or VISA Signature balance at the end of each
billing cycle, subject to the lesser of $30.00 or Your balance, plus any portion of the
Minimum Payments shown on prior statement(s) which remains unpaid, plus any
amount that exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.
LATE CHARGE (EXCEPT VISA). If Your payment is more than 7 days late, You will
be charged the greater of 20.00% of the payment due or $0.05.
FINANCE CHARGES (EXCEPT VISA). A Finance Charge will be assessed on any
unpaid principal balance for each Feature Category of Your Account for the period
such balance is outstanding. Balances change each time advances are made,
Copyright Oak Tree Business Systems, Inc., 2021. All Rights Reserved.

payments are made, or credits given under any Feature Category. The Finance
Charge begins to accrue on the date of each advance and there is no grace period.
HOW TO DETERMINE THE FINANCE CHARGE (EXCEPT VISA). For all Feature
Categories (except VISA), the Finance Charge is determined by multiplying Your
unpaid balance at the close of each day in the billing cycle being accounted for by the
applicable Daily Periodic Rate. The unpaid balance is the balance each day after
payments, credits, and unpaid Finance Charges to that balance have been subtracted
and any new advances, insurance premiums, or other charges have been added to
Your unpaid balance. These daily Finance Charges are then added together and the
sum is the amount of the Finance Charge owed for the Feature Category being
accounted for. The total Finance Charge You owe on Your Account for each billing
cycle is the sum of all the Finance Charges due for all applicable Feature Categories.
VISA FINANCE CHARGES. In the case of any transactions under Your VISA Platinum,
Secured VISA Platinum, VISA Rewards or VISA Signature Feature Categories, the
balances subject to the periodic Finance Charge are the average daily transactions
balances outstanding during the month (including new transactions). To get the
average daily balance, We take the beginning balance each day, add any new
purchases, balance transfers (except Secured VISA Platinum), cash advances,
insurance premiums, debit adjustments, or other charges and subtract any payments,
credits, and unpaid Finance Charges. This gives Us the daily balance. Then, We add
up all the daily balances for the billing cycle and divide them by the number of days in
the billing cycle. The Finance Charge for a billing cycle is computed by multiplying the
average dally balance subject to a Finance Charge by the applicable Daily Periodic
Rate times the number of days in the billing cycle.
For VISA Platinum, Secured VISA Platinum, VISA Rewards or VISA Signature Feature
Categories, You can avoid Finance Charges on purchases by paying the full amount
of the entire balance owed each month within 25 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the date
they are posted to Your Account, will be subject to a Finance Charge.
For VISA Platinum, VISA Rewards or VISA Signature Feature Categories, balance
transfers are always subject to a Finance Charge from the later of the date they are
posted to Your Account or from the first day of the billing cycle in which the transaction
is posted to Your Account.
For VISA Platinum, Secured VISA Platinum, VISA Rewards or VISA Signature Feature
Categories, cash advances are always subject to a Finance Charge from the later of
the date they are posted to Your Account or from the first day of the billing cycle in
which the transaction is posted to Your Account.
VISA Platinum purchase transactions are subject to a discounted Introductory Daily
Periodic Rate of _________% (corresponding ANNUAL PERCENTAGE RATE
_________%) until ____________________, whereas balance transfer transactions are
subject to a discounted Introductory Daily Periodic Rate of ________% (corresponding
ANNUAL PERCENTAGE RATE ________%) until ________________. Upon the
expiration of the Introductory Rate periods, the entire balance of purchases and balance
transfers will be subject to the non-introductory rates disclosed elsewhere in
this Agreement.
Secured VISA Platinum purchase transactions are subject to a discounted
Introductory Daily Periodic Rate of _________% (corresponding ANNUAL
PERCENTAGE RATE _________%) until ____________________. Upon the
expiration of the Introductory Rate period, the entire balance of purchases will be
subject to the non-introductory rates disclosed elsewhere in this Agreement.
VISA Rewards purchase transactions are subject to a discounted Introductory Daily
Periodic Rate of _________% (corresponding ANNUAL PERCENTAGE RATE
_________%) until ___________________, whereas balance transfer transactions are
subject to a discounted Introductory Daily Periodic Rate of _________% (corresponding
ANNUAL PERCENTAGE RATE _________%) until ____________________. Upon
the expiration of the Introductory Rate periods, the entire balance of purchases and
balance transfers will be subject to the non-introductory rates disclosed elsewhere in
this Agreement.
VISA Signature purchase transactions are subject to a discounted Introductory Daily
Periodic Rate of _________% (corresponding ANNUAL PERCENTAGE RATE
_________%) until ___________________, whereas balance transfer transactions are
subject to a discounted Introductory Daily Periodic Rate of _________% (corresponding
ANNUAL PERCENTAGE RATE _________%) until ____________________. Upon
the expiration of the Introductory Rate periods, the entire balance of purchases and
balance transfers will be subject to the non-introductory rates disclosed elsewhere in
this Agreement.
VISA VARIABLE RATE. Your VISA Platinum, Secured VISA Platinum, VISA Rewards
and/or VISA Signature Feature Categories are subject to a variable interest rate.
For VISA Platinum, VISA Rewards, and VISA Signature Feature Categories, advances
for purchases and balance transfers are subject to a Variable Rate which is based on

Page 4 of 6

OTBS 016 FRB Web SWST (3/21)
Rev. (1/19)

the United States Prime Rate as published in the Money Rates section of the Wall
Street Journal in effect on the day the discounted introductory rate expires, and
subsequently, on the 30th day immediately preceding each Change Date ("Index") plus
Our Margin. The Index plus the Margin equals the Interest Rate. For balances for
purchases and balance transfers, changes in the Index will cause changes in the
Interest Rate on the day the introductory rate expires, and subsequently on the 1st day
of each calendar month ("Change Date"). For VISA Platinum, VISA Rewards, and VISA
Signature Feature Categories, balances for cash advances are subject to a Variable
Rate which is based on the United States Prime Rate as published in the Money Rates
section of the Wall Street Journal in effect on the 30th day immediately preceding each
Change Date ("Index") plus Our Margin. The Index plus the Margin equals the Interest
Rate. For cash advances, changes in the Index will cause changes in the Interest Rate
on the 1st day of each calendar month ("Change Date").
For Secured VISA Platinum, advances for purchases are subject to a Variable Rate
which is based on the United States Prime Rate as published in the Money Rates section
of the Wall Street Journal in effect on the day the discounted introductory rate expires,
and subsequently, on the 30th day immediately preceding each Change Date ("Index")
plus Our Margin. The Index plus the Margin equals the Interest Rate. For balances for
purchases, changes in the Index will cause changes in the Interest Rate on the day the
introductory rate expires, and subsequently on the 1st day of each calendar month
("Change Date"). For Secured VISA Platinum, balances for cash advances are subject
to a Variable Rate which is based on the United States Prime Rate as published in the
Money Rates section of the Wall Street Journal in effect on the 30th day immediately
preceding each Change Date ("Index") plus Our Margin. The Index plus the Margin
equals the Interest Rate. For cash advances, changes in the Index will cause changes
in the Interest Rate on the 1st day of each calendar month ("Change Date").
For all VISA Feature Categories, increases or decreases in the Interest Rate will cause
like increases or decreases in the Finance Charge and will affect the number of Your
regularly scheduled payments. For all VISA Feature Categories, Your Interest Rate will
never be greater than 18.00% and will apply to Your remaining principal balance.
OVERDRAFT PROTECTION. We may transfer funds in the amount necessary (or in
such increments as We may from time to time determine) to Your share draft account
by an advance on Your Overdraft Protection Feature Category, subject to this
provision, to clear any overdraft on Your share draft account. To the extent permitted
by law, such transfer will also include the amount necessary to pay any fees and
charges that are: (a) occasioned by the returned item; and (b) the transfer of funds
required to clear that item. Whether or not such transfers occur will be controlled by
this Agreement. In any event, You hold Us harmless for any and all liability which
might otherwise arise if the transfer does not occur. Overdraft protection automatically
ceases if this Agreement is ever cancelled or terminated or Your Account is in default.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement showing
all transactions on Your Account including amounts paid and borrowed since Your last
statement. We will mail You a statement each month in which there is a debit or credit
balance or when a Finance Charge is imposed. We need not send You a statement if
We feel Your Account is uncollectible or if We have started collection proceedings
against You because You defaulted. EACH STATEMENT IS DEEMED TO BE A
CORRECT STATEMENT OF ACCOUNT UNLESS YOU ESTABLISH A BILLING
ERROR PURSUANT TO THE FEDERAL TRUTH-IN-LENDING ACT.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any
obligation under this Agreement, or any other agreement that You may have with Us;
or (b) You should die, become involved in any insolvency, receivership, or custodial
proceeding brought by or against You; or (c) You have made a false or misleading
statement in Your credit application and/or in Your representations to Us while You
owe money on Your Account; or (d) A judgment or tax lien should be filed against You
or any attachment or garnishment should be issued against any of Your property or
rights, specifically including anyone starting an action or proceeding to seize any of
Your funds on deposit with Us; and/or (e) We should, in good faith, believe Your ability
to repay Your indebtedness hereunder is or soon will be impaired, time being of the
very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel Your
rights under this Agreement, require the return of all access devices and declare the
entire balance of every Feature Category of Your Account immediately due and
payable, without prior notice or demand. If Your entire Account balance is not then
paid immediately upon default, and if permitted by law, the Collateral shall be
voluntarily surrendered to the Credit Union at a time and place acceptable to it. If this
is not done, to the extent permitted by law, the Credit Union may enter the premises
where the Collateral is located and take possession of it and the Credit Union may
assert the defense of a superior right of possession as the holder of a security interest
to any offense of alleged wrongful taking and conversion. The Credit Union may sell
or dispose of the Collateral in any manner permitted by law, and any resulting
deficiency on Your Account shall be immediately paid to the Credit Union. You further
agree that We may, if necessary and at Our option, improve the Collateral from the
state that it is in at the time of repossession to a state that is considered reasonable
and customary for normal use of the Collateral and You agree to reimburse Us for any
and all costs incurred in the course of such improvements.
Copyright Oak Tree Business Systems, Inc., 2021. All Rights Reserved.

COLLECTION COSTS. In the event collection efforts are required to obtain payment
on this Account, to the extent permitted by law, You agree to pay all court costs,
private process server fees, investigation fees, or other costs incurred in collection
and reasonable attorneys' fees incurred in the course of collecting any amounts owed
under this Agreement or in the recovery of any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments or any other
payments, even if they are marked "paid in full" without losing any of Our rights under
this Agreement. If any provision of this or any related agreement is determined to be
unenforceable or invalid, all other provisions remain in full force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move or
otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal Truth-InLending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance available
through Us and have the premiums added to Your outstanding balance. If You elect
to do so, You will be given the necessary disclosures and documents separately.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act," and/or "Credit Line Account Advance
Request and Security Agreement" which is delivered together with this Agreement or
at a later date becomes an integrated part of this Agreement and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the application; or by using Your Account or any Account access device;
or by authorizing another to use Your Account, You agree to and accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts
to update information contained in Your original Account application or other financial
information related to You, at Our request. You also agree that We may, from time to
time, as We deem necessary, make inquiries pertaining to Your employment, credit
standing, and financial responsibility in accordance with applicable laws and
regulations. You further agree that We may give information about the status and
payment history of Your Account to consumer credit reporting agencies, a prospective
employer or insurer, or a state or federal licensing agency having any apparent
legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account or any particular Feature
Category of Your Account, at any time, whether or not You are in default. You will, in any
case, remain liable to pay any unpaid balances according to the terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Texas, except to the extent that such laws are inconsistent with controlling
federal law.
SPECIFIC TERMS APPLICABLE TO YOUR
VISA PLATINUM, SECURED VISA PLATINUM, VISA REWARDS
AND VISA SIGNATURE CREDIT CARDS
USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial institutions.
You agree not to use Your Card for illegal transactions including, but not limited to,
advances made for the purpose of gambling and/or wagering where such practices
are in violation of applicable state and/or federal law.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon Your
request, a Personal Identification Number (PIN) for use with participating Automated
Teller Machines (ATMs). This PIN is confidential and should not be disclosed to
anyone. You may use Your PIN to access Your Account and all sums advanced will
be added to Your Account balance. In the event a use of Your PIN constitutes an
Electronic Fund Transfer, the terms and conditions of Your Electronic Fund Transfer
Agreement may also affect Your rights.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit, or other
slips You may sign or receive when using Your Card contain terms, this Agreement is
the contract which solely applies to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the

Page 5 of 6

OTBS 016 FRB Web SWST (3/21)
Rev. (1/19)

loss, theft, or possible unauthorized use by calling Us at (800) 262-5325 or (214) 3575577 or by writing to Us at 2430 Shorecrest, Dallas, Texas 75235. In any case, Your
liability will not exceed $50.00.
PRE-AUTHORIZED RECURRING CHARGES. You may, from time to time, establish
preauthorized recurring charges be made on Your Account. You understand that any
such preauthorized recurring charges will continue unless discontinued by You
directly with the service provider with whom You preauthorized the recurring charge.
To ensure that recurring preauthorized charges established and authorized by You
are not interrupted in the event that Your Card or other Access Device is reissued,
We may, but are under no obligation to do so, enroll Your account in automatic
account information update services that communicate new Card/Access Device
information to the service providers with whom You have established preauthorized
recurring charges, the purpose of which is to ensure charges You authorize continue
without interruption.





Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

You must contact Us:



Within 60 days after the error appeared on Your statement.
At least three business days before an automated payment is scheduled, if You
want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.
What Will Happen After We Receive Your Letter

REFUSAL TO HONOR CARDS. We are not liable for the refusal or inability of
merchants, financial institutions, and others to accept the Cards or electronic terminals
to honor the Cards or complete a Card withdrawal, or for their retention of the Cards.

When We receive Your letter, We must do two things:

FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and foreign
currencies, the exchange rate between the transaction currency and the billing currency
(U.S. Dollars) will be: (a) a rate selected by VISA from the range of rates available in
wholesale currency markets for the applicable central processing date, which rate may
vary from the rate VISA itself receives; or (b) the government-mandated rate in effect
for the applicable central processing date.

2)

For VISA Platinum, Secured VISA Platinum, and VISA Rewards Feature Categories,
for transactions that are initiated in a foreign currency, You will be charged 2.00% of
the final settlement amount, and for transactions occurring in foreign countries and
initiated in U.S. Dollars, You will be charged 2.00% of the final settlement amount.



Transactions initiated via the internet with merchants or other parties located outside of
the United States of America are deemed to occur in the foreign country where the
merchant or other party is located.
LATE CHARGE. If Your payment is more than 10 days late, You will be charged the
lesser of: (a) 20.00% of the minimum payment due (subject to a maximum of $27.00,
which amount will be increased to $38.00 if You have incurred a late charge within 6
months of previously incurring a late charge); or (b) the amount of the required
minimum payment.
RETURNED PAYMENT. You will be charged the lesser of $30.00 or the required
minimum payment amount for the returned payment for any check (or other negotiable
instrument) used for payment which is returned unpaid.
OTHER FEES AND CHARGES. You will be charged the following Fees and Charges
associated with the use of Your Card: (a) a cash advance fee FINANCE CHARGE
equal to the greater of 2.00% of each cash advance (excluding any such advance
obtained online) or $10.00; and (b) a balance transfer fee FINANCE CHARGE equal
to 2.99% of each such balance transfer.
TRANSACTION SLIPS. Your monthly statement will identify that merchant, electronic
terminal, or financial institution at which transactions were made, but sales, cash
advance, credit, or other slips cannot be returned with the statement.
LOST CARDS. To report lost or stolen Credit Cards, You will immediately call Us at
(800) 262-5325 or (214) 357-5577 or write to Us at the address shown in this Agreement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your Account.
If Your credits and payments exceed what You owe Us, We will hold and apply this credit
against future purchases and cash advances, or if it is $1.00 or more refund it on Your
written request or automatically deposit it to Your share account after 6 months.
Your Billing Rights: Keep this Document for Future Use

1)

Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

While We investigate whether or not there has been an error:





We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:



If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a statement
of the amount You owe and the date payment is due. We may then report You
as delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write to Us
within 10 days telling Us that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are questioning Your bill. We must
tell You the name of anyone to whom We reported You as delinquent, and We must
let those organizations know when the matter has been settled between Us. If We do
not follow all of the rules above, You do not have to pay the first $50.00 of the amount
You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the merchant,
You may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:
1)

2)

3)

The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more than
$50.00. (Note: Neither of these are necessary if Your purchase was based on
an advertisement We mailed to You, or if We own the company that sold You
the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
You must not yet have fully paid for the purchase.

This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.

What To Do If You Find A Mistake On Your Statement

While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that
point, if We think You owe an amount and You do not pay, We may report You
as delinquent.

If You think there is an error on Your statement, write to Us at Our address shown in
this Agreement. In Your letter, give Us the following information:

Copyright Oak Tree Business Systems, Inc., 2021. All Rights Reserved.

Page 6 of 6

OTBS 016 FRB Web SWST (3/21)
Rev. (1/19)

Southwest Airlines Federal Credit Union
www.swacu.org
DALLAS
2430 Shorecrest
Dallas, TX 75235
800.262.5325

HOUSTON
8441 Gulf Frwy., Suite 103
Houston, TX 77017
800.262.5325

PHOENIX
2330 E. Jones Ave, Suite 6
Phoenix, AZ 85040
800.262.5325

EULESS
801 W. Euless Blvd, Suite 104
Euless, TX 76040
800.262.5325

PRICING INFORMATION ADDENDUM – CREDIT LINE ACCOUNT
AGREEMENT AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR VISA CLASSIC, VISA GOLD, VISA SECURE AND MASTERCARD
PLATINUM CREDIT CARDS. PLEASE BE SURE TO READ THIS ADDENDUM CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

VISA Platinum:

0.00% Introductory APR for 12 months.
Your APR will be 8.25% to 16.25%

After that,
depending on Your
creditworthiness at the time You established Your account. This APR will vary with the
market based on the Prime Rate.

0.00% Introductory APR for 12 months.
APR will be 8.25% to 16.25% depending

Secured VISA Platinum:

After that, Your
on Your
creditworthiness at the time You established Your account. This APR will vary with the
market based on the Prime Rate.
VISA Rewards:

0.00% Introductory APR for 12 months.
Your APR will be 9.25% to 14.25%

After that,
depending on Your
creditworthiness at the time You established Your account. This APR will vary with the
market based on the Prime Rate.

0.00% Introductory APR for 12 months.
Your APR will be 11.25% to 13.25%

VISA Signature:

After that,
depending on Your
creditworthiness at the time You established Your account. This APR will vary with the
market based on the Prime Rate.
APR For Balance Transfers

VISA Platinum: 0.00% Introductory APR for 12 months.
After that, Your APR will be 8.25% to 16.25% depending on Your creditworthiness at
the time You established Your account. This APR will vary with the market based on
the Prime Rate.
VISA Rewards: 0.00% Introductory APR for 12 months.
After that, Your APR will be 9.25% to 14.25% depending on Your creditworthiness at
the time You established Your account. This APR will vary with the market based on
the Prime Rate.
VISA Signature: 0.00% Introductory APR for 12 months.
After that, Your APR will be 11.25% to 13.25% depending on Your creditworthiness at
the time You established Your account. This APR will vary with the market based on
the Prime Rate.

Please refer to TOP OF PAGE 2 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2021. All Rights Reserved.

Page 1 of 3

OTBS 016A FRB Web SWST (3/21)

Interest Rate and Interest Charges - continued
APR For Cash Advances

VISA Platinum: 18.00%
This APR will vary with the market based on the Prime Rate.
Secured VISA Platinum: 18.00%
This APR will vary with the market based on the Prime Rate.
VISA Rewards: 18.00%
This APR will vary with the market based on the Prime Rate.
VISA Signature: 18.00%
This APR will vary with the market based on the Prime Rate.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date.

Fees
Transaction Fees
 Cash Advance Fee
 Balance Transfer Fee
 Foreign Transaction Fee

2.00% of each advance ($10.00 minimum).
2.99% of each balance transfer.
Except VISA Signature, 2.00% of each transaction in U.S. Dollars.

Penalty Fees
 Returned Payment
 Late Payment

Up to $30.00
Up to $38.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
Please refer to PAGE 1 for more important information about Your Account

VISA FINANCE CHARGES. In the case of any transactions under Your VISA Platinum, Secured VISA Platinum, VISA Rewards or VISA Signature Feature Categories, the
balances subject to the periodic Finance Charge are the average daily transactions balances outstanding during the month (including new transactions). To get the average
daily balance, We take the beginning balance each day, add any new purchases, balance transfers (except Secured VISA Platinum), cash advances, insurance premiums, debit
adjustments, or other charges and subtract any payments, credits, and unpaid Finance Charges. This gives Us the daily balance. Then, We add up all the daily balances for the
billing cycle and divide them by the number of days in the billing cycle. The Finance Charge for a billing cycle is computed by multiplying the average dally balance subject to a
Finance Charge by the applicable Daily Periodic Rate times the number of days in the billing cycle.
For VISA Platinum, Secured VISA Platinum, VISA Rewards or VISA Signature Feature Categories, You can avoid Finance Charges on purchases by paying the full amount of
the entire balance owed each month within 25 days of Your statement closing date. Otherwise, the new balance of purchases, and subsequent purchases from the date they
are posted to Your Account, will be subject to a Finance Charge.
For VISA Platinum, VISA Rewards or VISA Signature Feature Categories, balance transfers are always subject to a Finance Charge from the later of the date they are posted
to Your Account or from the first day of the billing cycle in which the transaction is posted to Your Account.
For VISA Platinum, Secured VISA Platinum, VISA Rewards or VISA Signature Feature Categories, cash advances are always subject to a Finance Charge from the later of the
date they are posted to Your Account or from the first day of the billing cycle in which the transaction is posted to Your Account.
VISA Platinum purchase transactions are subject to a discounted Introductory Daily Periodic Rate of 0.00% (corresponding ANNUAL PERCENTAGE RATE 0.00%) for 12
months Upon the expiration of the introductory rate period, Your Daily Periodic Rate will increase to 0.022603% - 0.044521% (corresponding to an ANNUAL PERCENTAGE
RATE of 8.25% - 16.25%), depending on Your creditworthiness.
VISA Platinum balance transfer transactions are subject to a discounted Introductory Daily Periodic Rate of 0.00% (corresponding ANNUAL PERCENTAGE RATE 0.00%)
for 12 months. Upon the expiration of the introductory rate period, Your Daily Periodic Rate will increase to 0.022603% - 0.044521% (corresponding to an ANNUAL
PERCENTAGE RATE of 8.25% - 16.25%), depending on Your creditworthiness.
VISA Platinum cash advance transactions are subject to a Daily Periodic Rate of 0.049315% (corresponding to an ANNUAL PERCENTAGE RATE of 18.00%).
Secured VISA Platinum purchase transactions are subject to a discounted Introductory Daily Periodic Rate of 0.00% (corresponding ANNUAL PERCENTAGE RATE 0.00%)
for 12 months. Upon the expiration of the Introductory Rate period, Your Daily Periodic Rate will increase to 0.022603% - 0.044521% (corresponding to an ANNUAL
PERCENTAGE RATE of 8.25% - 16.25%), depending on Your creditworthiness.

Copyright Oak Tree Business Systems, Inc., 2021. All Rights Reserved.

Page 2 of 3

OTBS 016A FRB Web SWST (3/21)

Secured VISA Platinum cash advance transactions are subject to a Daily Periodic Rate of 0.049315% (corresponding to an ANNUAL PERCENTAGE RATE of 18.00%).
VISA Rewards purchase transactions are subject to a discounted Introductory Daily Periodic Rate of 0.00% (corresponding ANNUAL PERCENTAGE RATE 0.00%) for 12
months. Upon the expiration of the introductory rate period, Your Daily Periodic Rate will increase to 0.022603% - 0.039041% (corresponding to an ANNUAL PERCENTAGE
RATE of 9.25% - 14.25%), depending on Your creditworthiness.
VISA Rewards balance transfer transactions are subject to a discounted Introductory Daily Periodic Rate of 0.00% (corresponding ANNUAL PERCENTAGE RATE 0.00%)
for 12 months. Upon the expiration of the introductory rate period, Your Daily Periodic Rate will increase to 0.022603% - 0.039041% (corresponding to an ANNUAL
PERCENTAGE RATE of 9.25% - 14.25%), depending on Your creditworthiness.
VISA Rewards cash advance transactions are subject to a Daily Periodic Rate of 0.049315% (corresponding to an ANNUAL PERCENTAGE RATE of 18.00%).
VISA Signature purchase transactions are subject to a discounted Introductory Daily Periodic Rate of 0.00% (corresponding ANNUAL PERCENTAGE RATE 0.00%) for 12
months Upon the expiration of the introductory rate period, Your Daily Periodic Rate will increase to 0.022603% - 0.039041% (corresponding to an ANNUAL PERCENTAGE
RATE of 11.25% - 13.25%), depending on Your creditworthiness.
VISA Signature balance transfer transactions are subject to a discounted Introductory Daily Periodic Rate of 0.00% (corresponding ANNUAL PERCENTAGE RATE 0.00%)
for 12 months. Upon the expiration of the introductory rate period, Your Daily Periodic Rate will increase to 0.022603% - 0.039041% (corresponding to an ANNUAL
PERCENTAGE RATE of 11.25% - 13.25%), depending on Your creditworthiness.
VISA Signature cash advance transactions are subject to a Daily Periodic Rate of 0.049315% (corresponding to an ANNUAL PERCENTAGE RATE of 18.00%).
VISA VARIABLE RATE. Your VISA Platinum, Secured VISA Platinum, VISA Rewards and/or VISA Signature Feature Categories are subject to a variable interest rate.
For VISA Platinum, VISA Rewards, and VISA Signature Feature Categories, advances for purchases and balance transfers are subject to a Variable Rate which is based on the
United States Prime Rate as published in the Money Rates section of the Wall Street Journal in effect on the day the discounted introductory rate expires, and subsequently, on
the 30th day immediately preceding each Change Date ("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate. For balances for purchases and balance
transfers, changes in the Index will cause changes in the Interest Rate on the day the introductory rate expires, and subsequently on the 1st day of each calendar month ("Change
Date"). For VISA Platinum, VISA Rewards, and VISA Signature Feature Categories, balances for cash advances are subject to a Variable Rate which is based on the United
States Prime Rate as published in the Money Rates section of the Wall Street Journal in effect on the 30th day immediately preceding each Change Date ("Index") plus Our
Margin. The Index plus the Margin equals the Interest Rate. For cash advances, changes in the Index will cause changes in the Interest Rate on the 1st day of each calendar
month ("Change Date").
For Secured VISA Platinum, advances for purchases are subject to a Variable Rate which is based on the United States Prime Rate as published in the Money Rates section of
the Wall Street Journal in effect on the day the discounted introductory rate expires, and subsequently, on the 30th day immediately preceding each Change Date ("Index") plus
Our Margin. The Index plus the Margin equals the Interest Rate. For balances for purchases, changes in the Index will cause changes in the Interest Rate on the day the
introductory rate expires, and subsequently on the 1st day of each calendar month ("Change Date"). For Secured VISA Platinum, balances for cash advances are subject to a
Variable Rate which is based on the United States Prime Rate as published in the Money Rates section of the Wall Street Journal in effect on the 30th day immediately preceding
each Change Date ("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate. For cash advances, changes in the Index will cause changes in the Interest
Rate on the 1st day of each calendar month ("Change Date").
For all VISA Feature Categories, increases or decreases in the Interest Rate will cause like increases or decreases in the Finance Charge and will affect the number of Your
regularly scheduled payments. For all VISA Feature Categories, Your Interest Rate will never be greater than 18.00% and will apply to Your remaining principal balance.
For VISA Platinum purchase transactions, the Margin applicable to Your Account will be 5.00% - 13.00% depending on Your creditworthiness.
For VISA Platinum balance transfer transactions, the Margin applicable to Your Account will be 5.00% - 13.00% depending on Your creditworthiness.
For VISA Platinum cash advance transactions, the Margin applicable to Your Account will be 14.75%.
For Secured VISA Platinum purchase transactions, the Margin applicable to Your Account will be 5.00% - 13.00% depending on Your creditworthiness.
For Secured VISA Platinum cash advance transactions, the Margin applicable to Your Account will be 14.75%.
For VISA Rewards purchase transactions, the Margin applicable to Your Account will be 6.00% - 13.00% depending on Your creditworthiness.
For VISA Rewards balance transfer transactions, the Margin applicable to Your Account will be 6.00% - 13.00% depending on Your creditworthiness.
For VISA Rewards cash advance transactions, the Margin applicable to Your Account will be 14.75%.
For VISA Signature purchase transactions, the Margin applicable to Your Account will be 8.00% - 10.00% depending on Your creditworthiness.
For VISA Signature balance transfer transactions, the Margin applicable to Your Account will be 8.00% - 10.00% depending on Your creditworthiness.
For VISA Signature cash advance transactions, the Margin applicable to Your Account will be 14.75%.

Copyright Oak Tree Business Systems, Inc., 2021. All Rights Reserved.

Page 3 of 3

OTBS 016A FRB Web SWST (3/21)

